                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     EPA Needs to Improve
                     STAR Grant Oversight
                     Report No. 13-P-0361               August 27, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Eileen Collins
                                                   Kimberly Crilly
                                                   Janet Kasper
                                                   Madeline Mullen
                                                   Shannon Schofield
                                                   LaTanya Scott




Abbreviations

CFR           Code of Federal Regulations
EPA           U.S. Environmental Protection Agency
FY            Fiscal year
IGMS          Integrated Grants Management System
NCER          National Center for Environmental Research
OARM          Office of Administration and Resources Management
OGD           Office of Grants and Debarment
OIG           Office of Inspector General
ORD           Office of Research and Development
STAR          Science to Achieve Results


Cover photo: A mass spectrometer in a research laboratory is an example of laboratory
             equipment that can be used to analyze samples during STAR grant research
             (EPA OIG photo).




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       (202) 566-2599                                     Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency                                                  13-P-0361
                        Office of Inspector General                                                      August 27, 2013



                        At a Glance
Why We Did This Review              EPA Needs to Improve STAR Grant Oversight
The U.S. Environmental               What We Found
Protection Agency, Office of
Inspector General, conducted        We found that the EPA’s project officers did not monitor STAR grant recipients in
this audit to answer the            a manner consistent with the agency’s policy and guidance. For example, project
questions:                          officers did not take action when recipients submitted annual reports late, did not
                                    follow baseline monitoring guidance, and did not routinely follow up when
1. Is EPA effectively monitoring    disclaimers about EPA’s endorsement were not included in published articles.
   Science to Achieve Results       By not following policy, project officers increased the risk that issues would not
   grant recipient activities?      be corrected in a timely manner and that projects might not meet specified goals.
2. Does EPA verify that STAR
   grant recipients take action     During administrative advanced-monitoring reviews, the EPA did not ensure costs
   to ensure that research          were allocable to the grant and did not request certified effort reports. We
   misconduct is not associated     reviewed drawdowns totaling $639,045 and found $53,854 in costs that were not
   with grant activities?           allowable. We also found that one grant recipient’s certified effort reports did not
                                    comply with the recipient’s own internal policies.
The STAR competitive grant
program is the primary vehicle      Project officers did not actively monitor STAR grant recipients for potential
through which the EPA funds         research misconduct, or review recipients for compliance with research
research at universities and        misconduct terms and conditions. When the EPA does not monitor research
nonprofit groups. From fiscal       misconduct, the agency puts grant funds at risk.
years 2010 through 2012, the
EPA funded 220 projects              Recommendations and Planned Agency Corrective Actions
totaling $150,043,796 through
the STAR grant program.             We recommend that the EPA provide mandatory training to STAR grant project
                                    officers. The training should include baseline monitoring performance and
This report addresses the           instructions to ensure baseline monitoring reports are accurately completed.
following EPA Goal or               For incrementally funded grants, the EPA should enforce the terms and conditions
Cross-Cutting Strategy:             that allow withholding of funds for late or missing reports, and amend these
                                    requirements for all awards so that payment will be withheld when progress
  Advancing science, research       reports are missing or late. We recommend that the EPA require grant recipients
  and technological innovation.     to submit corrections to publications when acknowledgement of EPA funding and
                                    disclaimers of EPA endorsement are missing from articles.

                                    To address unallowable costs, we recommend that the EPA follow up on the
                                    unallowable costs that we identified and issue guidance to grant specialists for
                                    improving administrative advanced-monitoring reviews. We also recommend that
                                    the EPA require project officers to verify grant recipients’ awareness of research
                                    misconduct reporting requirements. The EPA’s completed and planned corrective
                                    actions address all of the OIG’s recommendations.
For further information, contact
our Office of Congressional and      Noteworthy Achievements
Public Affairs at (202) 566-2391.
                                    The EPA immediately corrected a website containing outdated terms and
The full report is at:              conditions after we informed the agency about the problem. Grant recipients are
www.epa.gov/oig/reports/2013/       now directed to the correct website for grant terms and conditions.
20130827-13-P-0361.pdf
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460




                                                                                    THE INSPECTOR GENERAL


                                             August 27, 2013

MEMORANDUM

SUBJECT:       EPA Needs to Improve STAR Grant Oversight
               Report No. 13-P-0361

FROM:          Arthur A. Elkins Jr.

TO:            Lek Kadeli, Principal Deputy Assistant Administrator
               Office of Research and Development

               Craig Hooks, Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends.

Action Required

In responding to the draft report, the agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The agency should track corrective actions not implemented in the Management Audit Tracking
System. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Janet Kasper, product line director, at (312) 886-3059 or kasper.janet@epa.gov.
EPA Needs to Improve STAR Grant Oversight                                                                               13-P-0361



                                  Table of Contents
Chapters
   1    Introduction .......................................................................................................    1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Noteworthy Achievements .........................................................................               2
                Scope and Methodology ............................................................................              2

   2    Project Officers Did Not Follow EPA Guidance ..............................................                             4

                STAR Grants Must Comply With Federal and EPA Requirements .............                                         4
                Annual Reports Were Frequently Late .......................................................                     5
                Project Officers Did Not Follow Baseline Monitoring Guidance ..................                                 6
                Published Articles Were Missing Required Disclaimers .............................                              7
                Recommendations .....................................................................................           8
                Agency Comments and OIG Evaluation .....................................................                        8

   3    Drawdown Reviews Need Improvement .........................................................                             10

                Federal Requirements Define Allowable Costs ..........................................                          10
                EPA Reimbursed Unallowable Costs .........................................................                      10
                Administrative Advanced-Monitoring Review Needs Improvement .............                                       12
                Increased Risk of Reimbursing Unallowable Costs ....................................                            12
                Recommendations .....................................................................................           13
                Agency Comments and OIG Evaluation .....................................................                        13

   4    Research Misconduct Terms and Conditions Were Not Monitored ..............                                              14

                EPA’s Terms and Conditions Define Research Misconduct
                     and Reporting Requirements .............................................................                   14
                Project Officers Did Not Monitor for Potential Research Misconduct ..........                                   15
                Project Officers Did Not Ask About Research Misconduct..........................                                17
                Risk of Research Misconduct Not Addressed ............................................                          17
                Recommendation… ...................................................................................             17
                Agency Comments and OIG Evaluation .....................................................                        18

   Status of Recommendations and Potential Monetary Benefits .............................                                      19


Appendices
   A    STAR Grants Reviewed by the EPA OIG .........................................................                           20

   B    Agency’s Response to Draft Report ...............................................................                       21

   C    Distribution .......................................................................................................    26
                                 Chapter 1
                                  Introduction
Purpose
            The U.S. Environmental Protection Agency, Office of Inspector General,
            conducted an audit of the Science to Achieve Results grant program to
            answer the questions:

               1. Is EPA effectively monitoring Science to Achieve Results grant recipient
                  activities?
               2. Does EPA verify that STAR grant recipients take action to ensure that
                  research misconduct is not associated with grant activities?

Background
            The STAR program began in 1995 and was assigned to the EPA’s National
            Center for Environmental Research and Quality Assurance—currently known as
            the National Center for Environmental Research. The program’s research focus
            was developed specifically to meet the research needs of the EPA. The program
            funds targeted research grants in numerous environmental science and
            engineering disciplines.

            The STAR competitive grant program is the primary vehicle through which the
            EPA funds research at universities and nonprofit groups. From fiscal years 2010
            through 2012, the EPA funded 220 projects totaling $150,043,796 through the
            STAR grant program. Research efforts funded by these grants are aligned with the
            EPA’s strategic goals, including the cross-cutting strategic goal of advancing
            science and research. The public can access progress reports about these research
            projects by visiting the NCER website at
            http://cfpub.epa.gov/ncer_abstracts/index.cfm/fuseaction/search.welcome.

            Although the NCER is responsible for administering the programmatic aspects of
            STAR grants, the Office of Grants and Debarment is responsible for the financial
            management of the STAR program. The NCER and OGD each perform baseline
            and advanced-monitoring reviews of grant recipients.

            The EPA includes terms and conditions in the grants that it awards. The terms and
            conditions cover topics such as financial and program management of the grants,
            timing and content of annual and final reports, and reporting requirements for
            research misconduct. According to the Code of Federal Regulations through
            2 CFR §215.61, grant recipients failing to comply with the terms and conditions
            of an award can have their awards terminated.



13-P-0361                                                                                  1
Noteworthy Achievements
            The EPA ensured that an outdated website was corrected so that the terms and
            conditions included in the awards would no longer direct grant recipients to
            outdated agency-specific information. We found that the EPA’s STAR grant
            agreements did not always include the correct website that contained the
            applicable agency-specific terms and conditions. When we informed EPA staff
            about this, they took immediate action to correct the problem.

Scope and Methodology
            We conducted this performance audit from July 2012 through June 2013, in
            accordance with generally accepted Government Auditing Standards (Yellow
            Book) issued by the Comptroller General of the United States. Those standards
            require that we plan and perform the audit to obtain sufficient, appropriate
            evidence to provide a reasonable basis for our findings and conclusions based on
            our audit objective. We believe that the evidence obtained provides a reasonable
            basis for our findings and conclusions based on our audit objective.

            The 12 STAR grants that we reviewed had a total funding amount of
            $10,385,348. The audit team initially made a judgmental selection of two grants
            with a total obligation amount of $4,680,608. After reviewing these two grants to
            gain an understanding of the STAR grant process and documents, the team
            randomly sampled 10 additional grants. We identified 84 STAR grants with
            project start dates after October 1, 2008, and project end dates prior to
            September 30, 2013. The total funding amount for these grants was $49,798,525.
            The team generated a random sample of 10 grants with a total obligation amount
            of $5,704,740.

            To determine whether there was evidence of monitoring and whether the
            monitoring was conducted in accordance with applicable policies and procedures,
            we obtained annual progress reports from the selected grant recipients’ project
            officers. We reviewed the annual progress reports to determine if the reports were
            submitted on time and whether they indicated progress commensurate with the
            outputs and outcomes identified in the work plan. We also obtained programmatic
            and administrative reports from the EPA’s Integrated Grants Management
            System. The IGMS reports were completed by project officers and grant
            specialists.

            To determine whether grant recipients were complying with the terms and
            conditions of their grants, we obtained the following documents from selected
            grant recipients and from websites where scientific articles are posted.

                   Supporting financial documentation for three selected drawdowns for
                   each of the five judgmentally selected grant recipients to determine if
                   claimed costs were allowable. We selected the five grants based on


13-P-0361                                                                                    2
                   information noted on the grant application indicating the recipient had
                   received funding for similar grants from EPA or other federal agencies.

                   Six published articles to determine whether the articles contained
                   an acknowledgment of EPA funding and a disclaimer stating the
                   EPA does not endorse the article. At the time of the audit, only six
                   of the grant recipients had published articles.

                   Scientific integrity policies of nine grant recipients to determine whether
                   their policies were consistent with EPA requirements for reporting
                   research misconduct, as outlined in the agency’s terms and conditions.
                   We reviewed the scientific integrity policies for the grant recipients that
                   we were also reviewing for financial documentation and published
                   articles. We limited our review to nine grant recipients to comply with
                   requirements of the Paperwork Reduction Act.

            We interviewed the OGD and Office of Research and Development staff
            (including project officers), and discussed their procedures for monitoring grant
            recipients and ensuring scientific integrity. We also interviewed the grant
            recipients to discuss applicable terms and conditions, reporting, and interactions
            with the EPA. The grants reviewed are listed in appendix A.

            There were no prior audits impacting the objectives of this assignment.




13-P-0361                                                                                        3
                                               Chapter 2
           Project Officers Did Not Follow EPA Guidance
                    Project officers did not monitor STAR grant progress in a manner consistent with
                    the EPA’s policy and guidance. Project officers also allowed grant recipients to
                    submit annual reports late. STAR grant recipients must comply with numerous
                    federal and EPA requirements. The project officers emphasized overall progress
                    rather than compliance with specific requirements. This introduced risks that
                    could lead to the project officers not detecting issues needing corrective action
                    and that might impact the project meeting its goals. In addition, missing
                    acknowledgements and disclaimers in published research put the EPA’s
                    transparency at risk and could give an appearance of the agency endorsing the
                    research.

STAR Grants Must Comply With Federal and EPA Requirements
                    The EPA’s Assistance Administration Manual (EPA Order 5700) requires agency
                    project officers to conduct baseline monitoring of all assistance agreements.
                    Monitoring is supposed to include a review of:

                             Compliance with programmatic terms and conditions.
                             Drawdowns and budget expenditures.
                             Recipient progress, including a comparison of funds available to project
                             progress or time remaining on the project.

                    The EPA’s Policy on Compliance, Review, and Monitoring (EPA Order 5700.6)
                    requires project officers to conduct baseline monitoring at least annually, and that
                    baseline monitoring should include a review of the grant recipient’s annual report.

                    Terms and conditions for EPA grants require recipients to submit annual reports
                    on grant progress. Depending on when the grant was awarded, the due date for the
                    annual report varies.

                    Table 1: Annual report due date
                         Terms and conditions
                                           1
                             issuance date                           Annual report due date
                      July 2008                          30 days prior to the end of the reporting period
                      June 2009                          30 days prior to the end of the reporting period
                      November 2010                      90 days after the end of the reporting period
                    Source: EPA grant terms and conditions.




1
    Terms and conditions apply to all grants awarded after the date the terms and conditions were issued.


13-P-0361                                                                                                   4
            If the recipient does not submit the annual report by the due date, the terms and
            conditions for partially funded grants allow the EPA not to provide further
            funding until the recipient has submitted the required annual progress report.

            The EPA encourages independent publication of results from its extramural
            research in appropriate scientific journals. When doing so, the terms and
            conditions require that there be an acknowledgement of EPA funding. The exact
            wording of the acknowledgement depends on when the grant was awarded. The
            FY 2008 terms and conditions required grant recipients to include the following
            statement in all journal articles publishing work funded by an EPA grant:

                     Although the research described in this article has been funded
                     wholly or in part by the United States Environmental Protection
                     Agency through grant/cooperative agreement (number) to (name),
                     it has not been subjected to the Agency’s required peer and policy
                     review and therefore does not necessarily reflect the views of the
                     Agency and no official endorsement should be inferred.

            The FY 2009 and FY 2010 terms and conditions revised the statement as follows:

                     This publication was made possible by USEPA grant (number). Its
                     contents are solely the responsibility of the grantee and do not
                     necessarily represent the official views of the USEPA. Further,
                     USEPA does not endorse the purchase of any commercial products
                     or services mentioned in the publication.

Annual Reports Were Frequently Late
            Of the 12 grants that we reviewed, 10 grant recipients submitted late annual
            reports for 2 years or more during the life of the projects (see table 2):

            Table 2: Annual progress reports that were late or not submitted
               Grant
              number        2007       2008       2009        2010         2011          2012
             83337401       273         109        Not        231           Not
                                                submitted                submitted
             83409301                              Not         140          289          Not
                                                submitted                             submitted
             83389201                                          98           123         225
             83435901                                          277          237         141
             83428501                                          122          139         135
             83428201                                          123          139          Not
                                                                                      submitted
             83438601                                          150          211
             83459601                                                       322          161
             83399002                              454         434          168
             83337302                                                       144            1
            Source: OIG analysis of recipient annual reports for days late. (Shaded cells indicate
            reports were not required that year.)




13-P-0361                                                                                            5
            The EPA’s project officers did not enforce the specific annual reporting time
            frames listed in the terms and conditions. In many cases, the project officer did
            not identify the correct annual report due dates in the terms and conditions,
            because award documents directed the reader to an outdated website that
            contained incorrect information. Project officers also did not conduct monitoring
            in compliance with EPA Order 5700.6, and one project officer chose to allow a
            grant recipient to submit late annual reports despite the due dates that were
            required by the terms and conditions. The often substantial tardiness of annual
            reports introduced an unnecessary risk that could lead project officers not to
            detect issues needing corrective action and might impact the project not meeting
            its goals.

            For grants that were awarded in full, there were no consequences for late or
            missing reports. For grants that received incremental funding, the terms and
            conditions gave the EPA the option of not providing further funding until grant
            recipients submitted annual progress reports. Four of the grants we reviewed
            received incremental funding, and three of those four grant recipients consistently
            submitted annual reports late. In fact, further funding had already been provided
            for two of the recipients before the first progress report was due, and one recipient
            was fully funded after the first progress report was submitted late. As a result, the
            EPA could not exercise this option.

Project Officers Did Not Follow Baseline Monitoring Guidance
            Of the eight EPA project officers that we interviewed, four did not conduct
            monitoring in compliance with EPA Order 5700.6 requirements. Specifically:

                   Two project officers did not complete programmatic baseline monitoring
                   reports for 1 year or more.
                   One project officer conducted baseline monitoring without reviewing the
                   recipient’s annual progress report.
                   One project officer did not review the project’s progress against the
                   timeline in the work plan, because the timeline was missing.

            The project officers are supposed to conduct baseline monitoring annually and
            document the monitoring in the IGMS. Baseline monitoring includes a review of
            the grant recipients’ annual progress reports. The 2007 baseline monitoring
            checklist guidance did not require project officers to note whether annual reports
            were late. This introduced a risk that the EPA could not detect issues needing
            corrective action and that projects might not meet their goals. The EPA updated
            that checklist in 2012 to include a specific question concerning whether progress
            reports were submitted as required. When project officers do not follow baseline
            monitoring guidance, the EPA’s oversight of grants is hindered.

            The terms and conditions require grant recipients to report expenditures to date,
            along with providing a comparison of the percentage of the project completed


13-P-0361                                                                                       6
            according to the project schedule. However, one project officer did not think that
            a timeline was necessary to review the project progress. Because the grant
            recipient’s work plan did not include a timeline, the project officer was unable to
            monitor sufficient progress within the agreed-upon project period. Subsequently,
            he approved a no-cost time extension to perform the work and/or to use the
            unexpended funds for additional work. When project officers allow STAR grant
            recipients to rely upon no-cost time extensions to complete work that the
            recipients had agreed to finish in a shorter time period, the integrity of the STAR
            grant award process is called into question.

Published Articles Were Missing Required Disclaimers
            Of the six published articles reviewed, three did not contain the disclaimer
            required by grant terms and conditions noting the EPA does not endorse the
            article (see table 3).
            Table 3: Published articles reviewed
                 Grant                                                              Disclaimer was
                number                             Article title                     not included
               83409301      UV Irradiation and Humic Acid Mediate Aggregation of          X
                             Aqueous Fullerene (nC60) Nanoparticles
               83428501      Economically Consistent Long-Term Scenarios for Air          X
                             Pollutant Emissions
               83459601      Exposure to Traffic-related Air Pollution During             X
                             Pregnancy and Term Low Birth Weight: Estimation of
                             Causal Associations in a Semiparametric Model
            Source: EPA OIG analysis of select published articles.

            Project officers learned about the inclusion of the required acknowledgment and
            disclaimer in published articles only after the actual publication; therefore, any
            corrective action by the agency was after the fact. Some project officers said they
            checked and found missing information, but only one acknowledged following up
            with the grant recipient. Follow-up was not consistent. During the audit, NCER
            management said actions could be taken to improve compliance with this
            requirement.

            Without the required disclaimer, people may presume that the EPA approves of
            the information presented in the articles. This is especially true when EPA
            funding is acknowledged. Public confidence in the EPA’s mission could be
            diminished if the research is contradicted in the future.




13-P-0361                                                                                            7
Recommendations
            We recommend that the Assistant Administrator for Research and Development:

               1. Require all project officers to attend training on how to perform baseline
                  monitoring. Include a discussion concerning actions to be taken when
                  publications do not include required acknowledgements and disclaimers.

               2. Conduct a review of baseline monitoring reports to ensure they are
                  accurately completed.

               3. Enforce the terms and conditions that allow funds to be withheld from
                  incrementally funded grants, if reports are missing or late.

               4. Amend terms and conditions so that all awards are subject to a condition
                  that payments will be withheld when reports are missing or late.

               5. Require the grant recipient to submit corrections to publications when
                  project officers identify missing acknowledgements and disclaimers.
                  Require immediate correction for online articles and at the next
                  publication date for printed articles.

               6. Require grant recipients to submit corrections to publications for the
                  articles that the EPA OIG identified as missing acknowledgments and
                  disclaimers.

Agency Comments and OIG Evaluation

            The EPA agreed with the recommendations and stated that the ORD will provide
            all STAR grant project officers with training on the performance of baseline
            monitoring. The ORD has drafted standard operating procedures for steps to be
            taken when annual progress reports are not received in a timely manner, including
            when to pursue withholding funds from incrementally funded grants due to failure
            to comply. The ORD is revising its guidance pertaining to annual report reviews, to
            include actions to be taken when publications do not have the required
            acknowledgements and disclaimers.

            The ORD is adding a requirement for grant recipients to ensure that publications
            have EPA acknowledgements and disclaimers. The ORD is also revising its terms
            and conditions to include a condition that payments may be withheld when reports
            are missing or late. This will be applied to all new STAR grants. If
            acknowledgements and disclaimers are identified as missing, principal investigators
            will be instructed to submit corrections. When implemented, the agency’s actions
            should address recommendations 1, 3, 4 and 5.




13-P-0361                                                                                      8
            The EPA reported that corrective actions for two of the recommendations have
            already been completed. The NCER completed a review of project officer file
            records and modified its multiyear review plan to include an annual review of
            STAR grants, including baseline monitoring reports. Also, the ORD received
            copies of three correction requests that journal editors made to add the required
            disclaimers. The EPA’s corrective actions address recommendations 2 and 6.




13-P-0361                                                                                       9
                                   Chapter 3
            Drawdown Reviews Need Improvement
            During administrative advanced-monitoring reviews, the EPA does not ensure
            that costs are allocable to the grant and does not request certified effort reports.
            We reviewed drawdowns totaling $639,045 and found $53,854 in costs that were
            not allowable because the costs were either unallocable or unsupported. We also
            found that one grant recipient’s certified effort reports did not comply with the
            recipient’s own internal policies. EPA Order 5700.6 states that the purpose of the
            advanced monitoring is to conduct in-depth assessments, including administrative
            and financial progress. Federal regulations state costs are allowable only if they
            are allocable to the grant agreement. The lack of detailed cost reviews increases
            the risk that more unallowable costs will be reimbursed in the future.

Federal Requirements Define Allowable Costs
            An allowable cost is defined in 2 CFR Part 220, Appendix A. A cost is allowable
            if it is reasonable, allocable to the sponsored agreements, and given consistent
            treatment. A cost is allocable to a particular cost objective if it is incurred solely
            to advance the work and benefits both the sponsored agreement and other work of
            the institution.

            According to 2 CFR Part 220, Appendix A, grant recipients are also required to
            confirm the activity of personnel who charge time to the grant through what is
            referred to as “certified effort reports.” These signed reports verify the work was
            performed by employees and can be signed by either the employee or a
            responsible official. The effort reports verify that salaries or wages were correctly
            charged against the grant.

            EPA Order 5700.6 requires the EPA to evaluate the allowability of costs as a part
            of advanced monitoring. The order states that the purpose of administrative
            advanced monitoring is to conduct in-depth assessments of a recipient’s
            administrative and financial progress. Additional EPA guidance for administrative
            advanced monitoring requires the testing of transactions to determine whether
            claimed costs are allowable, allocable, and reasonable under the assistance
            agreement.

EPA Reimbursed Unallowable Costs
            The EPA incorrectly reimbursed a total of $53,854 (see table 4). Of the
            $6,906,269 drawn down by the five grant recipients, we reviewed $639,045.




13-P-0361                                                                                      10
            The costs were not allowable because they were either not allocable to the grant
            or were not supported. While we only looked at a sample of the drawdowns, the
            sample may be an indicator that other unallowable costs exist.
            Table 4: Summary of unallowable costs

                          Type of cost                  Unallowable costs    Note
             Personnel                                             $44,886    1
             Travel                                                    426    2
             Other                                                     292    3
             Indirect costs                                          8,250    4
             Total                                                 $53,854
            Source: OIG analysis of recipient drawdown records.

            Note 1–Personnel Costs

            One grant recipient claimed $44,886 of personnel costs that were not allowable.
            The grant recipient did not provide certified effort reports as required by 2 CFR
            Part 220, Appendix A to confirm that distribution of labor is accurate.

            Recipient effort reports did not always meet federal regulations or the grant
            recipient’s own internal policies. For example, one grant recipient provided
            incorrect effort reports:

                    Three effort reports were certified by individuals who were not authorized
                    to certify effort reports, according to the grant recipient’s own internal
                    policy.

                    Nine effort reports did not identify the certifier by name, as required by
                    2 CFR Part 220, Appendix A.

            Note 2–Travel Costs

            Travel costs totaling $426 were not allowable:

                    Travel expenses totaling $224 were not allocable.
                       o The travel expense report showed a $200 expense for a personal
                           side trip to a different location. The costs claimed for the return
                           flight were not reduced to account for the expense associated with
                           the personal side trip.
                       o Internal audit fees related to two travel expense reports and totaling
                           $24 were included in the draw. However, the purpose of the travel
                           associated with these expense reports was not entirely related to
                           the EPA grant.




13-P-0361                                                                                        11
                   Travel expenses totaling $202 were not supported.
                      o A $198 hotel expense was not supported with a hotel receipt.
                      o A $4 local travel expense was not supported because $18 was
                          claimed, but only $14 was supported.

            Note 3–Other Costs

            The grant recipient claimed $292 in other costs that were not allowable:

                   Computer services costs totaling $211 were not supported.
                   Communication costs totaling $81 were charged to the STAR grant when
                   the cost should have been shared with another non-EPA funded project.

            Note 4–Indirect Costs

            Because personnel, travel and other costs identified above were not allowable,
            associated indirect costs totaling $8,250 were also not allowable.

Administrative Advanced-Monitoring Review Needs Improvement
            One of the grants in our sample had an administrative advanced-monitoring desk
            review, where we found:

                   The grant specialist traced payroll costs to the payroll register, but not to
                   the certified effort reports. According to OGD staff, the grant specialist
                   does not request effort reports during an administrative advanced-
                   monitoring review.
                   The grant specialist traced travel costs to the supporting documents, but
                   did not determine whether the travel was applicable to the grant.
                   According to OGD staff, the grant specialist would not know whether the
                   travel was applicable to the grant, because the specialists do not have the
                   same technical knowledge about the project as the project officers.

            The EPA’s grants staff do not collaborate with program staff on cost reviews. The
            agency’s policy requires grant specialists to review drawdowns as a part of the
            administrative advanced monitoring. However, according to EPA staff, drawdown
            reviews by grant specialists did not include verification or consultation with the
            project officer about cost allocability.

Increased Risk of Reimbursing Unallowable Costs

            Federal funds drawn for unallowable costs could have been put to better use.
            When the OGD and project officers do not collaborate on reviewing costs during
            administrative advanced monitoring, there is a risk that unallowable costs will be




13-P-0361                                                                                     12
            reimbursed. Also, not reviewing effort reports increases the risk that unallowable
            personnel costs will be reimbursed.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               7. Follow up on unallowable costs identified in the finding. If grant
                  recipients cannot provide documentation, require repayment of the funds.

               8. Issue guidance to grant specialists, and remind them that during
                  transaction testing they are required to:

                       a. Trace costs to source documents, including a review of certified
                          effort reports.
                       b. Make a determination as to whether costs are related to the
                          activities funded by the grant. Where grant specialists cannot
                          determine allocability, they should work with the project officer to
                          verify costs associated with the grant.

Agency Comments and OIG Evaluation

            The EPA agreed with the recommendations and stated that the Office of
            Administration and Resources Management will follow up on unallowable costs
            and require repayment as appropriate. When implemented, the agency’s actions
            should address recommendation 7. Also, the OARM reminded grant specialists to
            follow advanced-monitoring guidance provisions to trace grant costs to source
            documentation and determine whether costs are related to grant-funded activities.
            If there are allocability questions, grant specialists will work with the project
            officer to verify costs. The agency’s action addresses recommendation 8.




13-P-0361                                                                                   13
                                  Chapter 4
        Research Misconduct Terms and Conditions
                   Were Not Monitored
            Project officers did not actively monitor STAR grants for potential research
            misconduct or assess compliance with research misconduct terms and conditions.
            The grant recipients’ scientific integrity policies do not always reflect an
            understanding of this requirement and can conflict with agency policy. EPA Order
            5700.6 requires project officers to conduct baseline monitoring of all assistance
            agreements, including a review of compliance with programmatic terms and
            conditions. The EPA’s terms and conditions require grant recipients to notify the
            agency when the recipients discover research misconduct.

            Project officers assumed grant recipients would report research misconduct. The
            project officers also assumed the grant pre-award peer-review process and the
            published article peer-review process would lessen the likelihood of research
            misconduct. However, grant recipients may not understand the requirements for
            identifying and reporting research misconduct. The pre-award peer-review
            process only searches for one type of research misconduct—a conflict of interest;
            while during the publication peer-review process, the NCER does not receive any
            information. In both instances, the lack of monitoring increases the risk that
            federal funds will be misused.

EPA’s Terms and Conditions Define Research Misconduct and
Reporting Requirements
            The EPA’s terms and conditions for research misconduct state that in accordance
            with 40 CFR 30.51(f), the recipient agrees to notify the EPA project officer in
            writing about research misconduct involving research activities that are supported
            in whole or in part with agency funds. The EPA defines research misconduct as
            fabrication, falsification, or plagiarism in proposing, performing, or reviewing
            research or in reporting research results; or ordering, advising or suggesting that
            subordinates engage in research misconduct. Terms and conditions specified in
            the “EPA Research and Related Agency Specific Requirements” call for STAR
            grant recipients to:

                   (1) immediately notify the EPA Project Officer who will then
                       inform the EPA Office of Inspector General (OIG) if, at any
                       time, an allegation of research misconduct falls into one of the
                       categories listed below:

                       A. Public health or safety is at risk.
                       B. Agency resources or interests are threatened.



13-P-0361                                                                                   14
                       C. Circumstances where research activities should be
                          suspended.
                       D. There is a reasonable indication of possible violations of
                          civil or criminal law.
                       E. Federal action is required to protect the interests of those
                          involved in the investigation.
                       F. The research entity believes that the inquiry or
                          investigation may be made public prematurely so that
                          appropriate steps can be taken to safeguard evidence and
                          protect the rights of those involved.
                       G. Circumstances where the research community or public
                          should be informed.

                   (2) report other allegations to the OIG when they have conducted
                       an inquiry and determined that there is sufficient evidence to
                       proceed with an investigation.

            EPA Order 5700.6 requires project officers to conduct baseline monitoring of all
            assistance agreements, including a review of compliance with programmatic
            terms and conditions. The EPA’s programmatic baseline monitoring template
            includes the following question: Is the recipient complying with all applicable
            programmatic terms and conditions? The 2012 baseline monitoring template
            provides additional guidance and states that the project officer has to confirm that
            all terms and conditions are being met to the maximum extent practicable.

Project Officers Did Not Monitor for Potential Research Misconduct
            Project officers are not monitoring grant recipient compliance with research
            misconduct terms and conditions. Project officers said it is the grant recipient’s
            responsibility to report research misconduct, and the officers assume the
            recipients will do so if misconduct occurs. The project officers also did not review
            grant recipients’ scientific integrity policies to determine whether the recipients
            understood the EPA’s research misconduct definitions or the agency’s notification
            requirements.

            We reviewed scientific integrity policies for nine grant recipients (see table 5) and
            found that the policies did not include:

                   A complete definition of research misconduct.
                   A statement that the sponsoring agency would be notified immediately
                   upon discovery of research misconduct.




13-P-0361                                                                                    15
            Table 5: Scientific integrity policies not consistent with terms and conditions
                Grant                Missing notification                 Incomplete definition of
               number                   requirement                         research misconduct
             83337401                         X                                      X
             83329201                         X                                      X
             83409301                         X                                      X
             83438601                         X                                      X
             83428501                         X                                      X
             83428201                         X                                      X
             83459601                         X                                      X
             83399002                         X                                      X
             83337302                                                                X
            Source: OIG analysis of grant recipients’ scientific integrity policies.

            Notification Requirement

            The EPA’s terms and conditions require grant recipients to immediately notify the
            project officer if, at any time, an allegation of research misconduct falls into one
            of seven specified categories. However we found that eight grant recipients’
            policies contained reporting language that was inconsistent with the terms and
            conditions. For example:

                     One policy stated that the dean shall take whatever action he or she
                     considers appropriate and would provide a copy of the proceedings to the
                     EPA when required. There is a risk that all applicable allegations of
                     research misconduct would not be reported unless the dean took action on
                     the allegations first.

                     Another policy said the grant recipient would only notify the federal
                     sponsor within 24 hours if there is a reasonable indication of a possible
                     federal criminal and civil violation. It did not state that the sponsor would
                     be immediately notified for other conditions and did not include
                     circumstances where research activities should be suspended. There is a
                     risk that all applicable allegations of research misconduct would not be
                     reported.

            Definition of Research Misconduct

            All of the nine grant recipients’ policies defined research misconduct as
            “fabrication, falsification or plagiarism, in proposing, performing, or reviewing
            research, or in reporting research results,” as included in the EPA’s terms and
            conditions. However, none of the nine grant recipients included “ordering,
            advising or suggesting that subordinates engage in research misconduct” in their
            definition—terms that are found in the EPA’s definition of research misconduct.




13-P-0361                                                                                            16
Project Officers Did Not Ask About Research Misconduct

            The EPA’s guidance does not include specific procedures for project officers to
            follow when monitoring grant recipients for potential research misconduct.
            Project officers relied on the grant recipients’ experience and expertise and
            assumed recipients would report research misconduct when it occurred. Project
            officers made the following assumptions:

                   Grant recipients could be relied on to exercise scientific integrity, and that
                   it would not be necessary to review the policies to ensure that grant
                   recipients understood the research misconduct reporting requirements in
                   the terms and conditions.

                   The prestige of the universities and the professional reputation of the
                   principal investigators lessened the likelihood of research misconduct.

                   The pre-award process and the peer-review process for articles published
                   in reputable journals lessened the likelihood of research misconduct.

Risk of Research Misconduct Not Addressed
            Because grant recipients’ policies do not specifically address the reporting of
            research misconduct allegations to the EPA, there is a higher risk that the agency
            may not be notified when grant recipients become aware of actual or alleged
            research misconduct. An article appearing in Nature, an international journal of
            science, described a survey of scientists early in their career and in mid-career,
            and noted that 33 percent of the scientists admitted to engaging in at least one
            research misconduct activity during the previous 3 years. If the EPA is not
            notified when research misconduct is discovered, this could prevent the EPA from
            taking corrective action or determining whether grant funds were misused. The
            STAR program funds millions of dollars in research each year, and research
            misconduct puts those federal dollars at risk.

Recommendation
            We recommend that the Assistant Administrator for Research and Development:

               9. Require that during annual baseline monitoring, project officers verify that
                  grant recipients fully understand research misconduct reporting
                  requirements.




13-P-0361                                                                                     17
Agency Comments and OIG Evaluation

            The EPA agreed with the recommendation and stated that the NCER will modify
            its terms and conditions for annual progress reports to include an assertion of
            compliance with the research misconduct terms and conditions. When
            implemented, the agency’s action should address recommendation 9.




13-P-0361                                                                                18
                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                                  POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1         Action Official             Date      Amount      Amount

     1        8    Require all project officers to attend training on how     O       Assistant Administrator for     12/31/13
                   to perform baseline monitoring. Include a discussion               Research and Development
                   concerning actions to be taken when publications
                   do not include required acknowledgements and
                   disclaimers.

     2        8    Conduct a review of baseline monitoring reports to         C       Assistant Administrator for     7/19/13
                   ensure they are accurately completed.                              Research and Development

     3        8    Enforce the terms and conditions that allow funds to       O       Assistant Administrator for     9/30/13
                   be withheld from incrementally funded grants, if                   Research and Development
                   reports are missing or late.

     4        8    Amend terms and conditions so that all awards are          O       Assistant Administrator for     9/30/13
                   subject to a condition that payments will be withheld              Research and Development
                   when reports are missing or late.

     5        8    Require the grant recipient to submit corrections to       O       Assistant Administrator for     9/30/13
                   publications when project officers identify missing                Research and Development
                   acknowledgements and disclaimers. Require
                   immediate correction for online articles and at the
                   next publication date for print articles.

     6        8    Require grant recipients to submit corrections to          C       Assistant Administrator for     7/19/13
                   publications for the articles that the EPA OIG                     Research and Development
                   identified as missing acknowledgements and
                   disclaimers

     7       13    Follow up on unallowable costs identified in the           O        Assistant Administrator for    12/31/13      $54         $54
                   finding. If grant recipients cannot provide                        Administration and Resources
                   documentation, require repayment of the funds.                             Management

     8       13    Issue guidance to grant specialists, and remind            C        Assistant Administrator for    08/12/13
                   them that during transaction testing they are                      Administration and Resources
                   required to:                                                               Management
                     a. Trace costs to source documents, including a
                        review of certified effort reports.
                     b. Make a determination as to whether costs are
                        related to the activities funded by the grant.
                        Where grant specialists cannot determine
                        allocability, they should work with the project
                        officer to verify costs associated with the
                        grant.

     9       17    Require that during annual baseline monitoring,            O       Assistant Administrator for     12/31/13
                   project officers verify that grant recipients fully                Research and Development
                   understand research misconduct reporting
                   requirements,


1    O = Recommendation is open with agreed-to corrective actions pending.
     C = Recommendation is closed with all agreed-to actions completed.
     U = Recommendation is unresolved with resolution efforts in progress.




13-P-0361                                                                                                                                             19
                                                                                                                                 Appendix A

                                   STAR Grants Reviewed by the EPA OIG
                                                                                                               Scientific
                                                                                           Grant     Principal  integrity Published Drawdown
   Grant                                                     Grant           EPA         randomly investigators policy     articles  support
  number                     Project title                   period        funding        selected interviewed reviewed reviewed reviewed
  83337401     Changes in Climate, Pollutant Emissions,     03/01/07 –       $896,597                  X          X         X         X
               and United States Air Quality                 02/28/12
  83329201     Center for Children's Environmental          11/01/06 -      $3,784,011                 X          X         X         X
               Health                                        10/31/13
  83389201     Platinum-Containing Nanomaterials:           02/01/09 –       $399,406       X
               Sources, Speciation, and Transformation       01/31/13
               in the Environment
  83409301     Natural Organic Matter/C60 Fullerene         12/01/08 –       $399,996       X          X          X         X
               Interactions                                  11/30/12
  83428501     Analysis of Co-benefits of GHG               09/01/09 –       $300,000       X          X          X         X
               Abatement                                     08/31/13
  83399002     Novel Markers of Air Pollution Vascular      11/01/10 –       $432,664       X          X          X         X
               Toxicity                                      10/31/12
  83459601     Children's Environmental Health Center       05/07/10 –      $1,091,783      X          X          X         X         X
                                                             05/06/13
  83428201     Effects of Changing Climate on Fires & Air   11/01/09-        $599,366       X          X          X                   X
               Quality                                       10/31/13
  83438601     C02 Sequestration Modeling to Protect        12/01/09 –       $899,567       X          X          X                   X
               Drinking Water Sources                        11/30/13
  83337302     Impacts of Global Climate and Emissions      01/04/11 –       $259,778       X          X          X         X
               Changes on U.S. Air Quality Zones             04/14/13
  83482401     Comparison of Mice for Allergenicity         09/15/10 –       $423,546       X
               Testing                                       09/14/13
  83435901     Predicting Regional Allergy Hotspots -       09/01/09 –       $898,634       X
               Future Climates                               08/31/13
    Total                                                                 $10,385,348       10         9          9         7         5

Source: Project officers interviewed, file documents, and annual reports reviewed.




   13-P-0361                                                                                                                                   20
                                                                                 Appendix B

                Agency’s Response to Draft Report
                                         July 19, 2013
MEMORANDUM

SUBJECT:      Response to the Office of Inspector General Draft Report titled, The EPA Needs
              to Improve STAR Grant Oversight Project No. OA-FY12-0606, Dated June 18,
              2013

FROM:         Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management (OARM)

              Lek G. Kadeli, Principal Deputy Assistant Administrator
              Office of Research and Development (ORD)

TO:           Arthur A. Elkins, Jr., Inspector General
              Office of Inspector General (OIG)

Thank you for the opportunity to respond to the OIG draft report titled, The EPA Needs to
Improve STAR Grant Oversight. EPA is committed to keeping the Science to Achieve Results
(STAR) grant program as a highly competitive, rigorously peer-reviewed, well-managed
extramural research grants program. To further the cross-cutting Agency goal of enhancing
science and research while upholding the integrity of the way in which the Agency utilizes its
resources, the EPA’s ORD and the OARM will renew our commitment to collaborate closely to
that end. The STAR grant program helps maximize the Agency’s resources by complementing
and supplementing the research of our in-house laboratories that otherwise would not benefit
from the increased interagency collaboration and greater interactions with academic and non-
profit institutions on the forefront of innovative scientific research.

We appreciate the OIG’s work to assess EPA’s monitoring of STAR grants and proactive efforts
to ensure that research misconduct is not associated with grant activities. Most notably, your
team’s efforts to communicate with the Agency on a regular basis about potential findings and
recommendations have allowed us to take some immediate corrective actions during the course
of the review. In addition, these communications have provided us an opportunity to clarify
issues relating to certain findings and recommendations. In short, and as discussed during our
communications with your team, EPA generally agrees with the OIG’s recommendations
regarding STAR grants and has provided the corrective actions shown below.




13-P-0361                                                                                      21
      AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS


No.   Recommendation             Responsible Corrective Action (s)                    Estimated
                                 Office                                               Completion
                                                                                      Date
1     Require all project officers ORD        ORD will provide training on            1st Quarter FY
      to attend training on how               performance of baseline monitoring to   2014
      to perform baseline                     all STAR grant project officers. In
      monitoring. Include a                   addition, we are revising the annual
      discussion concerning                   report review guidance to include
      actions to be taken when                information on actions to be taken
      publications do not include             when publications do not include
      required                                required acknowledgements and
      acknowledgements                        disclaimers.
      and disclaimers.

2     Conduct a review of         ORD         In January 2013, NCER completed a        Completed
      baseline monitoring reports             review of official file records of STAR
      to ensure they are                      grants project officers, which included
      accurately completed.                   a review of baseline monitoring reports.
                                              As part of ORD’s FY 2013 Annual
                                              Assurance Letter, NCER modified its
                                              2013-2017 Multiyear Review Plan to
                                              include an annual review of STAR
                                              grants, including a review of baseline
                                              monitoring reports. Documentation that
                                              completes this corrective action has
                                              been provided to ORD’s Audit Liaison.

3     Enforce the terms and       ORD         ORD has drafted Standard Operating      4th Quarter FY
      conditions that allow funds             Procedures (SOP), which will be         2013
      to be withheld from                     finalized with assistance from OARM,
      incrementally funded                    to address steps to be taken when
      grants, if reports are                  annual progress reports for STAR
      missing or late.                        grants are not received in a timely
                                              manner. The SOP includes information
                                              on when to pursue withholding funds
                                              from incrementally funded grants due
                                              to failure to comply with this term and
                                              condition.




      13-P-0361                                                                               22
No.   Recommendation                 Responsible Corrective Action (s)                      Estimated
                                     Office                                                 Completion
                                                                                            Date
4     Amend terms and                ORD          ORD is revising the terms and             4th Quarter FY
      conditions so that all                      conditions for its STAR grant program     2013
      awards are subject to a                     to including a condition that payments
      condition that payments                     may be withheld when reports are
      will be withheld when                       missing or late. The revised terms and
      reports are missing or late.                conditions will apply to all new STAR
                                                  grants.
5     Require the grant recipient ORD             ORD is revising its SOP for STAR          4th Quarter FY
      to submit corrections to                    grants annual progress report review to 2013
      publications when project                   include a requirement that grant
      officers identify missing                   recipients ensure their publications
      acknowledgements and                        have appropriate EPA
      disclaimers.                                acknowledgements and disclaimers. If
      Require immediate                           acknowledgements and disclaimers are
      correction for online                       identified as missing, the principal
      articles and at the next                    investigator will be instructed to submit
      publication date for printed                corrections to the publications
      articles.                                   requesting corrections.



6     Require grant recipients to ORD             ORD has received copies of three          Completed
      submit corrections to                       correction requests made of the journal
      publications for the articles               editors and determined the fourth
      that the EPA OIG                            publication was submitted in error.
      identified as missing                       That publication has been removed
      acknowledgments and                         from the grants publication list.
      disclaimers.                                Documentation that completes this
                                                  corrective action has been provided to
                                                  ORD’s Audit Liaison.
7     Follow up on unallowable       OARM         OARM will follow up on unallowable        1st Quarter of
      costs identified in the                     costs and require repayment of costs as   FY 2014.
      finding. If grant recipients                appropriate.
      cannot provide
      documentation, require
      repayment of the funds.




      13-P-0361                                                                                      23
No.   Recommendation                 Responsible Corrective Action (s)                      Estimated
                                     Office                                                 Completion
                                                                                            Date
8     Issue guidance to grant      OARM           a. OARM has guidance that relates to      4th Quarter FY
      specialists, and remind                     this finding which can be found on the    2013
      them that during                            OARM/OGD G share at
      transaction testing they are                G:\GIAMD\Advanced Monitoring
      required to:                                Guidance. For example, the Standard
      a. Trace costs to source                    Operating Procedures for Grants
      documents, including a                      Management Office Desk and Onsite
      review of certified effort                  Reviews, Section III, Attachment 1 C
      reports.                                    (e), covers the review of supporting
      b. Make a determination                     documentation related to payroll and
      as to whether costs are                     other costs. OARM will remind grant
      related to the activities                   specialists to follow the provisions in
      funded by the grant. Where                  the guidance on tracing grant costs to
      grant specialists cannot                    source documentation.
      determine allocability, they
      should work with the                        b. OARM guidance related to this issue
      project officer to verify                   can be found in the Standard Operating
      costs associated with the                   Procedures for Grants Management
      grant.                                      Office Desk and Onsite Reviews,
                                                  Section III, Attachment 6. OARM will
                                                  remind grant specialists that during
                                                  transaction testing they are required to
                                                  determine whether costs are related to
                                                  grant funded activities and if there are
                                                  allocability questions, to work with the
                                                  project officer to verify costs.
9     Require that during annual     ORD          NCER will modify the term and            4th Quarter FY
      baseline monitoring,                        condition for annual progress reports to 2013
      project officers verify that                include an assertion of compliance with
      grant recipients fully                      the research misconduct term and
      understand research                         condition.
      misconduct reporting
      requirements.

      Should you or your staff have any questions related to EPA’s Office of Research and
      Development’s responsibilities for recommendations 1-6 and 9, please contact Deborah
      Heckman at (202) 564-7274. For questions related to EPA’s Office of Administration and
      Resources Management responsibilities for recommendations 7 and 8, please contact Jennifer
      Hublar at (202) 564-5294.

      cc: Ramona Trovato
          Bob Kavlock
          Nanci Gelb


      13-P-0361                                                                                     24
   Howard Corcoran
   Jim Johnson
   Bruce Binder
   Darrell Winner




13-P-0361            25
                                                                               Appendix C

                                    Distribution
Office of the Administrator
Principal Deputy Assistant Administrator, Office of Research and Development
Assistant Administrator, Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division,
   Office of Administration and Resources Management
Director, Office of Policy and Resource Management,
   Office of Administration and Resources Management
Deputy Director, Office of Policy and Resource Management,
   Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Policy and Resource Management,
   Office of Administration and Resources Management




13-P-0361                                                                                26
